Nos. 19-416 & 19-453
IN THE

Supreme Court of the United States
NESTLÉ USA, INC.,
Petitioner,
v.
JOHN DOE I, ET AL.

CARGILL, INC.,
Petitioner,
v.
JOHN DOE I, ET AL.
On Writs of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5, that I have, this 8th day of September,
2020, served three copies of Brief for the World Cocoa Foundation, the National
Confectioners Association, the European Cocoa Association, the Cocoa Merchants’
Association of America Inc., and the Association of Chocolate, Biscuits, and
Confectionary Industries of Europe as Amici Curiae Supporting Reversal upon each
party separately represented in this proceeding by causing them to be deposited with
the United States Postal Service, with first-class postage prepaid, addressed to
counsel of record at the address listed below:

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
neal.katyal@hoganlovells.com
Counsel of Record for Petitioner (No. 19-416)
Andrew John Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006
apincus@mayerbrown.com
Counsel of Record for Petitioner (No. 19-453)
Paul Lindsey Hoffman
Schonbrun Seplow Harris & Hoffman LLP
200 Pier Ave., Ste. 226
Hermosa Beach, CA 90254
hoffpaul@aol.com
Counsel of Record for Respondents
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

____________________________
Andrew Kim
Goodwin Procter LLP
1900 N Street, N.W.
Washington, D.C. 20036
AndrewKim@goodwinlaw.com
(202) 346-4000
Counsel for Amici Curiae
September 8, 2020

